      Department of Homeland Security




     United States Secret Service’s Management Letter for 

     FY 2012 DHS Consolidated Financial Statements Audit 





OIG-13-65                                         A pril 2013

                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006

March 12, 2013


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer,
U.S. Department of Homeland Security United States Secret Service
Washington, DC

Ladies and Gentlemen:

We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or Department) as
of September 30, 2012 and the related statements of net cost, changes in net position and custodial activity,
and combined statement of budgetary resources for the year then ended (referred to herein as the “fiscal
year (FY) 2012 financial statements”). The objective of our audit was to express an opinion on the fair
presentation of these financial statements. We were also engaged to examine the Department’s internal
control over financial reporting of the FY 2012 financial statements, based on the criteria established in
Office of Management and Budget (OMB), Circular No. A-123, Management’s Responsibility for Internal
Control, Appendix A.
Our Independent Auditors’ Report, issued on November 14, 2012, describes a limitation on the scope of
our audit that prevented us from performing all procedures necessary to express an unqualified opinion on
the DHS’ FY 2012 financial statements and internal control over financial reporting. In addition, the FY
2012 DHS Secretary’s Assurance Statement states that the Department was able to provide qualified
assurance that internal control over financial reporting was operating effectively at September 30, 2012.
We have not considered internal control since the date of our Independent Auditors’ Report.
In accordance with Government Auditing Standards, our Independent Auditors’ Report, referred to in the
paragraph above, included internal control deficiencies identified during our audit, that individually, or in
aggregate, represented a material weakness or a significant deficiency.
The United States Secret Service (USSS) is a component of DHS. We noted certain matters, related to
USSS, that are summarized in the Table of Financial Management Comments on the following pages,
involving internal control and other operational matters that are less severe than a material weakness or a
significant deficiency, and consequently are reported separately to the Office of Inspector General (OIG)
and USSS management in this letter. These comments and recommendations, all of which have been
discussed with the appropriate members of management, are intended to improve internal control or result
in other operating efficiencies. The disposition of each internal control deficiency identified during our FY
2012 audit – as either reported in our Independent Auditors’ Report, or herein – is presented in Appendix
A.
We would be pleased to discuss these comments and recommendations with you at any time. This report is
intended for the information and use of the DHS’ and USSS’ management, the DHS OIG, the U.S. OMB,
the U.S. Congress, and the Government Accountability Office, and is not intended to be and should not be
used by anyone other than these specified parties.
Very truly yours,




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                                    United States Secret Service
                             Table of Financial Management Comments
                                        September 30, 2012

TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)


 Comment
 Reference   Subject                                                                      Page

FMC 12-01    Journal Entry (JE) Controls                                                   2
FMC 12-02    Funds Management Controls and Supporting Documentation                        2
FMC 12-03    Deficiencies in USSS’s Seized Property Inventory Process                      3
FMC 12-04    Human Resource Compliance and Controls                                        3


APPENDIX

 Appendix    Subject                                                                      Page

    A        Crosswalk – Financial Management Comments to Active Notices of Finding and    5
             Recommendation (NFRs)




                                                  1

                                     United States Secret Service
                                  Financial Management Comments
                                         September 30, 2012


FMC 12-01 – Journal Entry (JE) Controls (NFR No. USSS 12-01)

       During testwork over a sample of 55 JEs, the following deficiencies were identified:
       •	 One instance in which documentation to support the purpose of an entry posted by the Office
          of Budget was not provided.
       •	 One instance in which an entry was not properly reviewed and approved prior to posting.
       •	 Several instances in which entries related to the recording of the pension liability and related
          expense were posted to the incorrect standard general ledger account.

       Recommendations:
       We recommend that United States Secret Service (USSS):
       •	 Financial Management Division reinforce to the Accounting Staff that all Journal Vouchers
          (JVs) posted in the financial reporting system are subject to approval by either the
          Accounting Branch Chief or the Deputy Division Chief.
       •	 Revise the procedures for posting the actuarial gains/losses based on the actuarial liability
          report. The procedures should also state that any changes to the procedures must be approved
          by the Deputy Chief of the Financial Management Division. This includes top-side
          adjustments from the Department as well.

FMC 12-02 – Funds Management Controls and Supporting Documentation (NFR No. USSS 12-02)

       During testwork over USSS’s open obligation balance and Undelivered Orders (UDOs) activity
       as of June 30, 2012, and September 30, 2012, we reviewed a sample of 118 transactions and
       identified the following deficiencies:
       •	 One instance where the obligation had not had any activity since fiscal year (FY) 2009, and
           was therefore invalid and had not been de-obligated.
       •	 One instance in which the period of performance (POP) was back dated on an executed
           contract in order to accept the invoice for the services performed.

       During testwork over USSS’s operating expenses type transactions as of June 30, 2012, and
       September 30, 2012, we reviewed a sample of 31 transactions and identified the following
       deficiencies related to improper 3-way match:
       •	 One instance in which the invoice detail did not agree to the amount of the expense per the
           face of the invoice.
       •	 One instance in which the goods received date (per the face of the invoice) did not agree to
           the receipt date recorded in the general ledger (GL).

       The GL system contains limitations to appropriately post prior year de-obligations in accordance
       with the United States Standard General Ledger (USSGL) requirements for upward/downward
       adjustments.




                                                   2

                                     United States Secret Service
                                  Financial Management Comments
                                         September 30, 2012


       Recommendations:
       We recommend that USSS:
       •	 Reinforce policies surrounding contract execution and ratification. Additionally, USSS
          sections that process payments within the Financial Management Division should be provided
          instruction regarding the need to utilize the correct received date and to review and have
          supporting documentation for all invoice charges.
       •	 For open obligations, USSS should develop and provide instruction on procedures for
          monitoring open obligations, obligation activity and de-obligation.

FMC 12-03 – Deficiencies in USSS’s Seized Property Inventory Process (NFR No. USSS 12-03)

       We statistically selected five seized property locations in which to observe the annual inventory
       and noted the following:
       •	 One instance in which the chain of custody form was not available for inspection and
           verification but was included on the count sheet as inventory at the site.

       Upon review of the inventory completion package, we noted the following:
       •	 One instance in which the counterfeit tracking application (CTA) did not properly reflect the
          transfer of a case to another field office.

       Upon review of the September consolidated reconciliation, we noted the following:
       •	 One instance in which the total not-in-evidence notes per the reconciliation were not properly
          updated to reflect the September activity submitted by the field office.
       •	 Subsequent to review and approval, the total notes reported on the reconciliation as of
          September 30, 2012 was corrected due to a mathematical error on the original approved
          reconciliation.

       Recommendation:
       We recommend that USSS’s Forensic Services Division management and evidence vault team
       schedule a meeting with the Financial Management Division and the CTA program manager to
       review the current policies and reporting procedures used for tracking and transferring evidence,
       and update as necessary.

FMC 12-04 – Human Resource Compliance and Controls (NFR No. USSS 12-04)

       During testwork over a sample of 25 employee personnel actions (SF-52s), the following
       deficiencies were identified:
       •	 Five instances in which the quality review for the personnel action was not completed timely
           (i.e., within one month following the effective date of the action).
       •	 Four instances in which documentation to evidence the completion of the quality review was
           not provided.
       •	 Two instances in which documentation to support award approval was unable to be provided.
       •	 One instance in which the employee’s grade per the SF-52 did not agree to the SF-50.

       During testwork over a sample of 53 employees’ payroll and benefit expense, the following
       deficiencies were identified:
       •	 Inaccurate expenses calculations:



                                                  3

                              United States Secret Service
                           Financial Management Comments
                                  September 30, 2012


      •	 One instance in which the employee’s overtime was calculated using the incorrect
           rate.
•	 Lack of documentation:
      •	 Four instances in which the SF-2809 (Federal Employees’ Health Benefit (FEHB)
           form), evidencing either the current benefits election or the waiver of benefits, was
           unable to be provided.
      •	 Seven instances in which the current Thrift Savings Plan election form was unable to
           be provided.

Recommendation:
We recommend that USSS review all standard operating procedures and make necessary
adjustments. Review a random sample of data on a biweekly basis to ensure that proper
procedures are followed.




                                           4

                                                                                                             Appendix A
                                         United States Secret Service
                         Crosswalk – Financial Management Comments to Active NFRs
                                             September 30, 2012


                                                                                                  Disposition1
                                                                                                  IAR                FMC
NFR No.       Description                                                               MW        SD        NC        No.
12-01         Journal Entry (JE) Controls                                                                            12-01
12-02         Funds Management Controls and Supporting Documentation                                                 12-02
              Deficiencies in United States Secret Services’ (USSS’) Seized Property
12-03                                                                                                                12-03
              Inventory Process
12-04         Human Resource Compliance and Controls                                                                 12-04

1
 Disposition Legend:
IAR       Independent Auditors’ Report dated November 14, 2012
FMC       Financial Management Comment
MW        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC        Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR       Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A         Financial Reporting
B         Information Technology Controls and System Functionality
C         Property, Plant, and Equipment
D         Environmental and Other Liabilities
E         Budgetary Accounting
F         Entity-Level Controls
G         Grants Management
H         Custodial Revenue and Drawback
I         Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J         Federal Financial Management Improvement Act of 1996 (FFMIA)
K         Single Audit Act Amendments of 1996
L         Antideficiency Act, as amended (ADA)




                                                             5

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix B
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   United States Secret Service

   Director
   Chief Financial Officer
   Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  -6-                       OIG-13-65
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
